No. 20-659
IN THE SUPREME COURT OF THE UNITED STATES

LARRY THOMPSON, PETITIONER
v.
PAGIEL CLARK, ET AL.

CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of the
BRIEF FOR THE UNITED STATES AS AMICUS CURIAE SUPPORTING PETITIONER, via email
and by first-class mail, postage prepaid, this 11th day of June, 2021.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document 8995 words, excluding the parts
of the document that are exempted by Supreme Court Rule 33.1(d). I declare under penalty of perjury
that the foregoing is true and correct. Executed on June 11, 2021.

Elizabeth B. Prelogar
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2218

June 11, 2021
Due to the continuing delay in receiving incoming mail at the Department of Justice, in addition to
mailing your brief via first-class mail, we would appreciate a fax or email copy of your brief. If that is
acceptable to you, please fax your brief to Charlene Goodwin, Supervisor, Case Management Specialist, Office
of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2218. Thank you for your
consideration of this request.

20-0659
THOMPSON, LARRY
PAGIEL CLARK, ET AL.

AMIR H. ALI
RODERICK & SOLANGE MACARTHUR
501 H ST., NE
SUITE 275
WASHINGTON, DC 20002
202-869-3434
AMIR.ALI@MACARTHURJUSTICE.ORG
STEVEN EDWARDS ART
LOEVY & LOEVY
311 N. ABERDEEN ST.
3RD FL
CHICAGO, IL 60607
312-243-5900
STEVE@LOEVY.COM
RICHARD PAUL DEARING
CORPORATION COUNSEL OF THE CITY OF
NEW YORK
100 CHURCH ST.
NEW YORK, NY 10007
212-356-2500
RDEARING@LAW.NYC.GOV
MARY B. MCCORD
INSTITUTE FOR CONSTITUTIONAL
ADVOCACY AND PROTECTION
GEORGETOWN UNIVERSITY LAW CENTER
600 NEW JERSEY AVENUE, NW
WASHINGTON , DC 20001
202-661-6607
MBM7@GEORGETOWN.EDU

DEVIN ANDREW SLACK
NEW YORK CITY LAW DEPARTMENT
100 CHURCH STREET
NEW YORK, NY 10007
212-356-0817
DSLACK@LAW.NYC.GOV

